No.

21-5700
Supremo Court, U.S.
FILED

AUG 2 2 2021

si

IN THE

OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES

Stanley Renard Tilley 5r. _PETITIONER
(Your Name)
Bobby Lumpkin,

Director,

Texas Apartment of Criminal

Justice, Correctional Institutions ^^-^p^y^oNDENTfS)

ON PETITION FOR A WRIT OF CERTIORARI TO

United States Court of Appeals for the Fifth Circuit
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

Stanley Renard Tilley, Sr.
(Your Name)
Wainuright Unit

2665 Prison Road #1

(Address)
Loyelady, Texas 75851

(City, State, Zip Code)

(Phone Number)

QUESTION(S) PRESENTED

Mr. Tilley alleged that he is actual innocent, and his
trial counsel was ineffective for failing to call expert
witnesses as requested by Mr. Tilley, nor did he visit
the crime scene in a "Capital Case" along with other
errors. The only evidence linking Tilley to Thirkill's
murder was Anderson's testimony, that was contrary to the
physical evidence presented by the state at trial. Tilley
cites two affidavits of far more experience experts in
forensic pathology that refuted the testimony of witnesses
who were never call to speak on his behalf at his trial,
who gave credible (affidavits) that the keystone witness
(Anderson) committed the acts for which he (Tilley) was
convicted and sentenced.

(The case thus presents the
A

following questions).
I'Jhether Tilley has met the actual innocence standard for
overcoming procedural default in (Schlup v. Delo, 513
U. 5.298,31 5-1 6,

324, 327-29

(1 995 )... House v - Bell., ■' 547:' Lk 5 .

51 fV;. (2D06) but also was he entitle to immediate
release under the (Herrera Standard)... and whether
Tilley's constitutional rights to the effective assistance
of counsel defined in Strickland \J. Washington, 466 U. S.
660 was violated, and whether the judgement of the Fifth
Circuit adopting the District Court opinion and refusing
to review his .merits and set aside his sentence or grant
a certiorari was contrary to, or involved an unreasonable
application of clearly established federal law as deter­
mined by the Supreme Court of the United States, within
the meaning of 28 U.S.C. §2254(d)(1)-arid §2244(b)(2)(B)(ii).

(i)

LIST OF PARTIES

V*/All parties

appear in the caption of the case on the cover page.

[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES

i
V

(ii)

TABLE OF CONTENTS
*

OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

'3

STATEMENT OF THE CASE

4

REASONS FOR GRANTING THE WRIT

7
13

CONCLUSION

INDEX TO APPENDICES

APPENDIX A- Decision of United States of Appeals

1 A-34

APPENDIX B- Decision of District Court

3A -36

APPENDIX C“ Decision of Magistrate Judge

5A -38

APPENDIX D
APPENDIX E
APPENDIX F

«

(iJLi)

TABLE OF AUTHORITIES CITED
CASES

«

PAGE NUMBER

Cleveland v. Bradshaw, 693 F.3d 626; 2D12 U.S. App .
7
Lexis 18948; 2012 Fed. App. 0314 p (6th Cir. 2012
8.9.12
Schlup v. Delo, 513 U.S. 298, 329 (1 995).....................
Vosgien v. Person, 742 F.3d 1 1 31 -34, 1 1 36 (9th Circuit 2014)..B
Larsen v. Soto, 742 F. 3d 1 083, 1 086, 1 096 (9th Cir. 2013). ..8,11
Herrera v. Collins, 506 U.S. at 404 (1 993)..............................
0,9,12
House v. Bell, 547 U.S. 51B, 165 L. ED. 2d 1, 126, S. Ct.
9
2064 (2D06)...........................................................................................
Quartarro v. Hanslmaier 28 F. Supp . 2d 749 (E.D.N.Y. 1 998). ...10
Strickland v. Washington, 466 U.S. 668, 691
80 L. Ed. 2d
10,12
674 (1 984).......................... ....................................
10
Towns v. Smith, 395 F. 3d 251, 259 (6th Cir. 2005)
10
Roger v. Israel, 746 F.2d 1288 (7th Cir. 1984)....
10
Miller v. Anderson, 255 F.3d 455 (7th Cir. 2001)..
Burr v. Lassiter, 513 Fed. Appx., 327, 346 (4th Cir. 2013)....10
Pavel v. Hollins, 261 F.3d 210 (2d Cir. 2001)
11

■i

STATUTES AND RULES
2
5,6,8
3
3
3

28 U.S.C. §1 254 ..................
28 U.S.C. §2254 ..................
U.S. CONST., AMEND. \J. .
U.S. CONST., ''AMEND . VI.
U.S. CONST. , AMEND'. XIV

OTHER
«■

Exhibit A, curriculum vitae for General Dr. Cohn Plunkett MD. . 15
Exhibit B, curriculum vitae for Chief Dr. Harry 3. Bonnell MD.26

(iv):

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[ ] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[tf is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is

to

[ ] reported at
; or,
[ 1 has been designated for publication but is not yet reported; or,
\yf is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_____ to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the _
appears at Appendix

court
to the petition and is

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

JURISDICTION
[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was .111np ?_? ?n?i_______ _
dNo petition for rehearing

was timely filed in my case.

[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: ____________
, and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_______
[ ] A timely petition for rehearing was thereafter denied on the following date:
______________________ , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2

j

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

V

The following statutory and constitutional provisions
are involved in this case.
U.5. CONST. , AMEND. I/
No person shall he held to answer for a Capital, or
otherwise infamous crime, unless on a presentment or
indictment of a grand jury, except in cases arising in
the land or naval force, or in the militia, when in actual
service in time of war or public danger; nor shall any
oerson be subject for the same offence to be twice put in
jeopardy of life or limb; nor shall be compelled in any
criminal case to be a witness against himself, nor be
deprived of life

liberty, or property, without due process

of law, nor shall private property be taken for public use,
without just compensation.
U.S. CONST. , AMEND. I/I
•In all criminal prosecutions, the accused shall enjoy the
right to a speedy and public trial

by an impartial-jury of

the state and district wherein the crime shall have been
committed, which district shall have been previously ascert­
ained by law, and to be informed of the nature and cause
of the accusation; to be confronted with the witnesses,
against him;

to have compulsory process for obtaining

witnesses in his favor, and to have the assistance of
counsel for his defence.
U.S. CONST., AMEND. XIV
Section 1 . All persons born or naturalized in the
United States, and subject to the jurisdiction thereof,
are citizens of the United States and of the state wherein
they reside. Mo state shall make or enforce any law which
shall abridge the privileges or immunities of citizens
of the United States; nor shall any state deprive any person
of life, liberty, or property, without due process of law;
nor deny to any person within its jurisdiction the equal
protection of the laws .
3

STATEMENT OF THE CASE

Mr . Tilley

Petitioner, was convicted of the murder

of Toliver Thirkill. According to Lester Anderson, the ,
keystone witness for the state that was on state parole
and federal supervise release at the time of the crime.
He (Anderson) admitted under oath that he uas addictive
to crack cocaine and shooting up cocaine for over a
decade .
The prosecutor's opening statement at Tilley's trial,
uas ue have no evidence on this man (Tilley), only an
eyewitness and we're going to try this case anyway.
Lester Anderson alleged that he, Mr. Tilley and Tolliver
Thirkill met in a south Tyler ice cream parlor to plan
a drug deal. Tilley arrived at the meeting in a green
vehicle and got into the back seat of Lester Anderon's
black tahoe. Thirkill rode in the front passenger seat,
and Anderson sat behind the steering wheel. They rode
towards Jacksonville, after they crossed the Cherokee •
County line, Anderson turned right onto a country road.
Tilley drew a gun, pointed it at Thirkill and told him
to put his hands bn the dashboard. Anderson slowed to a
stop at the MT” in the road and asked Tilley which way
to turn. Tilley said, take a right. Tilley then shot
Thirkill in the jaw and he (Thirkill) fell out of the
passenger side door backwards. Tilley had also left the
vehicle. Anderson sped away leaving Tilley and Thirkill's
body on the roadside.
Tilley fired six times at Anderson in the fleeing black
Tahoe. Anderson saw that he was being pursued by the green
car that had brought Tilley to the meeting in Tyler. Two
witnesses miles from the crime scene testified that they
had seen the Tahoe pursued by the green car, similar in
appearance to the car owned by Tilley's girlfriend, but
none of the witnesses identified anyone inside the green
4

car in the chase, nor at the crime scene. No witnesses
positively identified the green car. There was no records
of the license plate number, and no other unique identifiers.
Anderson drove the SUV from the crime scene in
Jacksonville, Texas to his parents house in Neches, Texas.
He (Anderson) did not turn the SUV over to the investiga­
tors until four hours after the crime. The investigators
found no fingerprints or DNA inside of Anderson's vehicle.
Not even his own, nor the victim (Thirkill). It was no
physical evidence against Mr. Tilley at the crime scene,
nor in Anderon's vehicle to confirm the allegation.
The state's medical expert testified that Thirkill
was shot twice in the right side of his lower back, and
he fell out of the passenger door forward. His final
findings was the bullets came from the backseat behind
the driver .
On February 11 , 2010, Tilley was sentenced to Life
without parole for the offense of Capital Murder. He
then filed a motion for a new trial, which was denied
without a hearing. Tilley filed a Direct Appeal

which

was denied April 29, 201 1 . See Tilley v. State, 2011

LdL

1689090 (Tex. App. - Tyler 2011). The Texas Court of
Criminal Appeals refused Tilley's petition for Discre­
tionary review on October 19, 2011.
Tilley then filed a Pro Se Actual Innocence State
Habeas application with two attached affidavits from far
more experienced experts that refuted the testimony of
•state witnesses regarding the injuries suffered by the
victim and the trajectory of the bullets. On November
30, 2D15, and the state habeas court held a hearing on
the application on May 19, 2017. Subsequently, on March
21 , 2018, the Texas Court of Criminal Appeals denied
Tilley's habeas application, without a written order on
the findings of the trial court after the hearing. Tilley
then filed a federal habeas petition in the Eastern
5

District of Texas on March 21, 2018..That was dismissed
September 14, 2020. Tilley then filed an appeal to the
Fifth Circuit October 5, 2020, that was denied on the
ruling of the District Court Dune 22, 2021, without
reviewing the merits. Tilley proclaim he is-.innocent of
Thirkill's murder, nor was he present at the crime scene.

c

6

REASONS FOR GRANTING THE PETITION

The Fifth Circuit is unreasonable to clearly established
Federal law, as determined by the Supreme Court of the United
States. Standard of Schlup, Herrera and Strickland. Warrants
this Copurts attention.
The Fifth Circuit adopted the District Court opinion and
denied Mr. Tilley's habeas petition without reviewing the
merits. The District Court dismissed the petition on the basis
that it was untimely under 28 U.S.C.5. §2244(d). Petitioners
habeas petition was improperly denied on that basis that was
untimely under 28 U.5.C.S. §2244(d) because the petitioner had
presented a credible claim of actual innocence that entitled
tolling of the one year limitations period under §2244(d) and
review of his habeas petition on the merits. See Cleveland v.
Bradshaw, 693 F. 3d 626; 2012 U.S. flpp. Lexis 18948; 2012 Fed.
App. 0314 p (6th Cir. 2012)(prejudice review).
Petitioner maintains that his petition is timely because
he possesses newly discovered evidence that he could not obtain
prior to the one year deadline. Petitioner cites two affidavits
of recognized experts in forensic pathology that refuted the
testimony of state witnesses regarding the injuries suffered
by the victim and the trajectory of the bullets.
See Exhibit A, curriculum vitae for General Dr. John
Plunkett, M.D.
See Exhibit B, curriculum vitae for Dr. Harry 3. Bonnell, M.D.
Mr. Tilley - Petitioner has made the requisite showing of
innocence :,to excuse facial untimeliness of his petition" and
allow federal courts to review ineffective assistance of counsel
at trial, ineffective assistance of counsel an his first appeal,
prosecutorial misconduct, and police misconduct claims.
Mr. Tilley produced witnesses who were never called to speak
on his behalf at his trial and who'gave credible affidavits
that someone other than Tilley committed the acts for which
7

he was convicted and sentenced.. .which conclude that it
-is more likely than not that no reasonable juror hearing
all of the evidence Mr. Tilley presented in federal court
would vote to convict him under the beyond-a-reasonabledoubt standard. Quoting Schlup v. Delo, 513 U.S. 298, 329
(1995).

(To invoke the miscarriage of justice exception

to AEDPA's statute of limitations, a petitioner must show
that it is more likely than not that no reasonable juror
would have convicted him in light of the new evidence. (quoting Schlup, 513 U.S. at 327). See Uosgien v. Persson,
742 F. 3d 1131-34, 1136 (9th Circuit, 2D14) Larsen v. Soto ,
-742 F. 3d 1083, 1DB6, 1 096 (9th Circuit 2C13).
See 28 U.S.C. §2254 Rule 4. Focusing on the merits of
a petitioner's actual innocence claim and taking account
of delay in that context, rather than treating timelines
as a threshhold inquiry,

is tuned to the rational under­

lying the miscarriage of justice exception - i.e. ensuring
''that federal constitution errors do not result in the
incarceration of innocent person." Herrera v./Collins,
506 U.S. at 404 (1 993) .
The lower court argued that the affidavits is not new
by stating the record shows that the jury heard testimony
•concerning whether a bullet hit the victim in the face,
how the victim fell out of the truck, whether the victim
was sitting up during the first shot, testimony regarding
bullet trajectory,

"and how there were multiple "hypothe-

ticals" to achieve an upwards trajectory".
Mr. Tilley's trial counsel asked the state expert
"hypothetically questions" and the "state expert answered
with "hypothetically" before answering the questions"...
The definition to hypothetically is unproved and untested.
Dr. Plunkett's affidavit summed up the hypothetically
questions with his conclusion after he reviewed and analyzed
the entire transcript and exhibits, to include his,'
"conclusion" of the autopsy performed on Toliver Thirkill...
8

Dr. Bonnell's affidavit summed up the hypothetical
questions with "findings" after he reviewed and analyzed
the entire transcript and exhibits to include his "find­
ings" of the autopsy performed on Toliver Thirkill. This^is
newly discovered evidence that was not available at trial.
The states expert Dr. Barnard final findings was "the
bullets came from the "back seat 'behind the driver", and
Mr. Tilley was found guilty of Capital Murder and sentenced
to life without parole... General, Dr. Plunkett and Dr.
Bonnell's final conclusion and findings were the bullets
came from t'the driver side "front seat" occupant shot
Mr. Thirkill" as he (Thirkill) was exiting the vehicle
face first... General, Dr. Plunkett and Dr. Bonnell is
far more experience than-’the states expert...Mr. Tilley
produced witness who were never called to speak on his
behalf at his trial and gave credible affidavits that
someone other than Mr. Tilley committed the acts for
which he was convicted and sentenced... general, Dr.
Plunkett and Dr. Bonnell and their final conclusion and
findings is newly discovered evidence that was not
available at trial. See House v. Bell, 547 U . S. 518, 165
L. Ed. 2d 1, 126, S. Ct. 2064 (2D06); Schlup v. Delo,
513 U.S. 298, 326-327, 11 5 S. Ct. B51 , 1 3D L. Ed. 2d BOB
(1995); Herrera v. Collins 506 U.S. 390, 400, 122 L. Ed.
2d 20.3 (1 993) ;
In this case, the only evidence linking Tilley to
Thirkill's murder was Anderson's testimony, and Anderson's
testimony was contrary to the physical evidence presented
by the state at trial . there was no physical evidence
linking Tilley to the murder of Toliver Thirkill. No
DNA, no fingerprints, no fiber evidence was recovered
from the crime scene or in Anderson's vehicle where the
crime occurred. The green car at the crime scene could
not be ipositively identified. There was no record of the
license plate number, and no other unique identifiers.
In sum, all of the physical evidence was exculpatory.
9

See Quartarro v. Hanslmaier, 28 F. Supp. 2d 749 (E.D.N.Y.
1998).
Mr. Tilley has been pursuing his rights diligently,
his federal habeas petition was the culmination of his
?

unbroken efforts over many years to prove his innocence
using evidence he knew !.* could exonerate him but which
his attorney incompetently failed to present at trial...
Mr. Tilley requested his state appointed attorney to
hire an forensic pathologist to examine all the evidence
presented by the state before trial to prove his

\

innocence. Mr. Tilley's attorney denied his request
because Tilley nor his family had the funds requested to
hire a forensic pathologist and that was the end of that
conversation. Mr. Tilley's trial attorney did not visit
the crime scene, nor did he investigate Anderson's
vehicle where the crime occurred. See Strickland v.
Washington, 466 U S. 668, 691, 80 L

Ed

2d 674 (1 984);

Towns v. Smith, 395 F.3d 251, 259 (6th Cir. 20D5);

Roger

v. Israel, 746 F. 2d 1288 (7th Cir. 1984); Miller v.
Anderson, 255 F. 3d 455 (7th Cir. 2001); and Burr v.
Lassiter, 513 Fed. Appx., 327, 346 (4th Cir. 2013)
Mr. Tilley's defense counsel neither called a medical
expert to rebut the prosecutors expert, nor consulted
an expert prior to trial. Consultation with an expert
was crucial in Tilley's case for two reasons. #1, Counsel
had neither the education nor the experience to evaluate
the evidence and make for himself a reasonable informed
determination a*s to whether an expert should be consulted
or called to the stand; and #2, there was an obvious,
common sense mismatch between the physical evidence and
the allegations such that a "reasonably professional
attorney" would have consulted and been ready to call
an expert to address the inconsistencies.
Moreover, the fact remains that in the absence of a
defense expert to challenge the states expert findings,

1G

_

j

it was all assured that Dr. Barnard's testimony would
carry great weight with the jury. See, the state habeas
hearing on the 19th day of May, 2017, transcript page
51 ; 8-17, where trial attorney (Sten M. Langsjoen)
admitted under oath that he did not call an expert nor
did he consult with one concerning the trajectory before
trial. See Pavel v. Hollins, 261 F.3d 210 (2d Cir . 2001 ).
Mr. Tilley contacted numerous forensic pathologists
.while being incarcerated and indigent throaghiletters
between/2011 and the start of Dr. Bonnell's and Dr.
Plunkett's examinations in 2012. Both experts agreed to
examine all Tilley's trial documents that took time and
efforts to receive all the requested materials from
courts while being indigent.
Texas Department of Criminal Justice System do not
pay the residence to work, nor do T.D.C.J. allow residence
to make copies in the law library of original documents
to.forward to organizations. Which each step is time
consuming without income or an attorney's outside
assistancef;to speed up the process with phones, internet,
copy machines and access to court records.
Dr. John Plunkett, M.D. affidavit indicates Mr. Tilley
pursuing his rights diligently at #3 A. letters from
Mr. Tilley dated on receiving on April 10, May 3, June
14, August 11, and November 26, 2012; February 27 and
May 16, 2013; and October 13 and December 12, 2014;...
The dates indicates it took Mr. Tilley two and a half
years to receive an affidavit from Dr. Plunkett... It
took years to locate witnesses scattered across the
country, gather declarations, and file Tilley's petition
is not so lengthy a time as to be unreasonable concern­
ing the condition. See Larsen v. Soto, 742 F. 3d 10B3,
10B6, 1096 (9th Circuit 2013).
These cases illustrate the fact that the Fifth Circuit
Court of Appeals is out of step with other circuits in

11

its considerations of the Schlup v. Delo, 513 U.S.
298, 329 (1995). Herrera v. Collins, 5D6 U.S. at 404
(1 993) and Strickland v. Washington, 466 U.S. 668, 691/i
80 L. Ed. 2d 674 (1984), prejudine preng.
The decision of the Fifth Circuit is in conflict
with the decisions of other circuits.
Certiorari: should be granted to correct this error.

*

12

CONCLUSION
For these reason, a Writ of Certiorari should issue to
review the judgement and opinion of the Fifth Circuit Court
of Appeals

The petition for a writ of certiorari should be granted.

Respectfully submitted,
i

Date: flOjQfi I f. SolT &Q& I

9

13

